            U.S. ENVIRONMENTAL PROTECTION AGENCY
            OFFICE OF INSPECTOR GENERAL



                                         Catalyst for Improving the Environment


Site Visit Report




        American Recovery and
        Reinvestment Act Site Visit of the
        Tower Chemical Superfund Site,
        Clermont, Lake County, Florida
        Report No. 11-R-0431

        August 3, 2011
Report Contributors:                               Safiya Chambers
                                                   Iantha Maness
                                                   Michael Rickey
                                                   John Trefry




Cover photo: Excavation of soils and sediment at the Tower Chemical Superfund site in
             Clermont, Lake County, Florida. (EPA photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       703-347-8330                                       Mailcode 8431P (Room N-4330)
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                                                                                                          11-R-0431
                       U.S. Environmental Protection Agency                                            August 3, 2011
                       Office of Inspector General


                       At a Glance
                                                                          Catalyst for Improving the Environment


Why We Did This Review               American Recovery and Reinvestment Act
The U.S. Environmental               Site Visit of the Tower Chemical Superfund
Protection Agency, Office of         Site, Clermont, Lake County, Florida
Inspector General, conducts site
visits of American Recovery and      What We Found
Reinvestment Act of 2009
(Recovery Act) funded projects.      We conducted an unannounced visit at the Tower Chemical Superfund site in
The purpose of the visits is to      Clermont, Lake County, Florida, on July 12–13, 2010. We toured the project
confirm compliance with selected     site, interviewed contractor and subcontractor personnel, and reviewed
Recovery Act requirements. We        documentation related to Recovery Act requirements. We also visited the
selected the Tower Chemical          contractor’s office in Virginia and EPA Region 4 to interview personnel and
Superfund project in Clermont,       review files.
Lake County, Florida, for review.
                                     Based upon our site visit, we did not identify any issues that would require
Background                           action from Polu Kai Services, LLC, or the U.S. Environmental Protection
                                     Agency.
EPA awarded a fixed price
contract under the Recovery Act to
Polu Kai Services, LLC, to clean
up contaminated soils at the Tower
Chemical Superfund Site. This
remedial action consisted of
excavating, transporting, and
disposing of soils contaminated
with pesticides and other
composites, and restoring the
excavated areas. The value of the
contract was $4,197,177.




For further information, contact
our Office of Congressional,
Public Affairs and Management
at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2011/
20110803-11-R-0431.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                 THE INSPECTOR GENERAL




                                          August 3, 2011

MEMORANDUM

SUBJECT:	 American Recovery and Reinvestment Act Site Visit of the
          Tower Chemical Superfund Site, Clermont, Lake County, Florida
          Report No. 11-R-0431


FROM:          Arthur A. Elkins, Jr.
               Inspector General

TO:	           Gwendolyn Keyes Fleming
               Regional Administrator, Region 4
               U.S. Environmental Protection Agency


This is our report on the subject site visit conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency (EPA). The report summarizes the results of our site visit
of the Tower Chemical Superfund Site in Clermont, Lake County, Florida.

We performed this site visit as part of our responsibility under the American Recovery and
Reinvestment Act of 2009 (Recovery Act). The purpose of our site visit was to determine the
contractor’s compliance with selected requirements of the Recovery Act pertaining to EPA
Contract No. EP-R4-10-01. EPA used Recovery Act funds of $4,197,177 for the contract.

The estimated direct labor and travel costs for this report are $124,388.

Action Required

Because this report contains no recommendations, you are not required to respond to this report.

The report will be made available at http://epa.gov/oig. If you or your staff have any questions
regarding this report, please contact Melissa Heist, Assistant Inspector General for Audit, at
(202) 566-0899 or heist.melissa@epa.gov; or Robert Adachi, Director of Forensic Audits, at
(415) 947-4537 or adachi.robert@epa.gov.
Purpose
            The purpose of our unannounced site visit was to determine whether the
            contractor for the Tower Chemical Superfund Site project complied with selected
            requirements of the American Recovery and Reinvestment Act of 2009 (Recovery
            Act), P.L. 111-5, pertaining to U.S. Environmental Protection Agency (EPA)
            Contract No. EP-R4-10-01. We also evaluated the reasons for limiting contract
            competition to small business 8(a) contractors and awarding a fixed price
            contract.

Background
            On October 28, 2009, EPA awarded a fixed price contract under the Recovery Act
            to Polu Kai Services, LLC, to provide remedial services at the Tower Chemical
            Superfund Site, Operable Unit 3, located in Clermont, Lake County, Florida.
            These remedial services consisted of excavating, transporting, and disposing soils
            contaminated with pesticides and other composites, and restoring the excavated
            areas. The contract addressed steps in the Record of Decision, dated
            September 14, 2006. EPA began cleaning up the Tower Chemical Superfund Site
            in 1983.

            EPA issued a nationwide Invitation for Bids to Small Business Administration
            8(a) contractors. EPA received 23 bids between $2.8 and $8 million. The
            government’s independent estimate was about $8 million.

            EPA has modified the contract 19 times to correct accounting issues, replace key
            personnel, provide technical direction, order optional quantities, and add new
            work and additional excavation capacity. The contract has increased from the
            original amount of $2,639,060 to $4,197,177. The principal reason for the higher
            cost was an increase in the amount of contaminated soil being removed. EPA
            prepared two Justifications for Other Than Full and Open Competition and
            performed price analysis to increase the contract’s scope and price.

Scope and Methodology
            Due to the time-critical nature of Recovery Act requirements at the time of our
            site visit, we did not perform this assignment in accordance with generally
            accepted government auditing standards. We did not perform certain steps that
            would allow us to obtain information to assess the contractor’s internal controls
            and any previously reported audit concerns. As a result, we do not express an
            opinion on the adequacy of the contractor’s internal controls or compliance with
            all federal, state, or local requirements.

            We conducted our unannounced site visit at the Tower Chemical Superfund Site
            on July 12–13, 2010. We also visited the subcontractor and employment agency
            for temporary personnel working on the site. During our visit, we:


11-R-0431                                                                                       1
               1.	 Toured the project
               2.	 Interviewed contractor, subcontractor, and temporary personnel
               3.	 Reviewed records maintained by the contractor, subcontractor, and
                   temporary employment agency on the following matters:

                       a.	 Buy American requirements under Section 1605 of the Recovery
                           Act
                       b.	 Wage rate requirements under Section 1606 of the Recovery Act
                       c.	 Limits on funds and reporting requirements under Sections 1604
                           and 1512 of the Recovery Act

            We visited the contractor’s office in Virginia to interview senior managers and
            obtain records. On August 16–19, 2010, we traveled to Region 4 to interview the
            contracting officer and review procurement records. We also interviewed the
            project officer for the remedial action at the Tower Chemical Superfund Site.

Results of Site Visit
            Based upon our site visit, we did not identify any issues that would require action
            by Polu Kai Services, LLC, or EPA. We have summarized our results below.

            Buy American Requirements

            We did not identify any issues regarding Section 1605 of the Recovery Act, which
            requires that all iron, steel, or manufactured goods be produced in the United
            States, unless certain exceptions apply. The remedial action at the Tower
            Chemical Superfund site consisted of excavating, transporting, and disposing of
            soils contaminated with pesticides and other composites, and restoring the
            excavated areas. We were told that the only material purchased was the sand used
            to backfill the excavated areas. The contract did not call for the use of any iron,
            steel, or manufactured goods.

            Wage Rate Requirements

            The contractor complied with Section 1606 of the Recovery Act. We interviewed
            all employees at the Tower Chemical Superfund Site on July 13, 2010, to collect
            information on compensation, job duties, training, and qualifications. We
            compared the wages paid on the certified payroll to the Davis-Bacon Act Wage
            Determination included in the contract. We found that all employees were paid
            wages and fringe benefits equal to or above the Davis-Bacon rates prescribed in
            the contract.




11-R-0431                                                                                     2
            Limits on Funds and Reporting

            Based on our review of the contract’s statement of work and a visual inspection of
            the work being performed at the Tower Chemical Superfund Site, we concluded
            that the contract complied with Section 1604 of the Recovery Act, which states
            that no Recovery Act funds can be used for any casino, other gambling
            establishment, aquarium, zoo, golf course, or swimming pool.

            We concluded that the contractor complied with its responsibilities under
            Section 1512 of the Recovery Act, which requires reports on the use of funds and
            the number of jobs created or retained. We reviewed the 2010 second quarter
            report prepared and submitted by the contractor to the federal reporting website,
            as instructed by the contract. Based on our review, the information included in the
            report met Recovery Act requirements.

            Contract Matters

            EPA decided to award a fixed price contract to a small, disadvantaged firm based
            on sealed bids. This decision was based on recommendations in the Recovery Act
            and guidance from the Office of Management and Budget and EPA. EPA selected
            the lowest responsive, responsible bidder. In addition to being a certified 8(a)
            contractor, the selected contractor was a Service Disabled Veteran Owned Small
            Business, a Small Business Administration Small Disadvantaged Business, and a
            Native American (Hawaiian) owned business.

            The contract has increased from the original amount of $2,639,060 to the current
            value of $4,197,177. The principal reason for the higher cost was an increase in
            the amount of contaminated soil being removed. The EPA contracting officer
            prepared two Justifications for Other Than Full and Open Competition to increase
            the contract’s scope. The contracting officer used price analysis to determine that
            the negotiated price increases were fair and reasonable.

            The EPA project officer stated that although there was extensive soil testing
            before the project started, it still was not possible to estimate the exact quantity of
            contaminated soils needing removal on an excavation project of this nature. The
            project officer was satisfied with the work being done under the contract.

            The contractor awarded a large fixed-price subcontract in excess of $2 million.
            The subcontract contained the same work as the prime contract. Almost half of
            the subcontract cost was to pay for the estimated transportation and disposal costs.
            Both the prime contractor and subcontractor obtained personnel to work on the
            Tower Chemical Superfund Site from a temporary employment agency. Based on
            interviews and background checks, these temporary employees were experienced
            in environmental construction and met hiring criteria.




11-R-0431                                                                                         3
            We could not determine whether the contractor complied with the limitations on
            subcontracting clause in the contract, which required the contractor to expend at
            least 50 percent of the cost of contract performance incurred for personnel on
            “employees of the concern.” At the time of our site visit, work on the contract was
            not complete and a limits on subcontracting determination could not be done until
            the contractor completed all work. Secondly, such a determination would be
            dependent on whether the contractor and subcontractor retained complete cost
            records for a fixed-price contract, which they were not required to do. An
            examination of any cost records maintained by the contractor or subcontractor
            was beyond the scope of this assignment.

Recommendations
            We have no recommendations.

Agency Response and Office of Inspector General Comment
            On July 21, 2011, we held an exit conference with representatives from EPA
            Region 4 and Polu Kai Services, LLC to discuss the conclusions in the report.
            Since there were no recommendations, we did not require or receive comments to
            the draft report.




11-R-0431                                                                                    4
                                Status of Recommendations and
                                  Potential Monetary Benefits

                                                                                                               POTENTIAL MONETARY
                                                  RECOMMENDATIONS                                               BENEFITS (in $000s)

                                                                                                   Planned
    Rec.   Page                                                                                   Completion   Claimed    Agreed To
    No.     No.                         Subject                       Status1   Action Official      Date      Amount      Amount

                                 No recommendations




1   O = recommendation is open with agreed-to corrective actions pending
    C = recommendation is closed with all agreed-to actions completed
    U = recommendation is undecided with resolution efforts




11-R-0431                                                                                                                             5
                                                                               Appendix A

                                     Distribution
Office of the Administrator 

Regional Administrator, Region 4 

Director, Office of Acquisition Management 

Agency Followup Official (the CFO) 

Agency Followup Coordinator 

General Counsel 

Associate Administrator for Congressional and Intergovernmental Relations 

Associate Administrator for External Affairs and Environmental Information 

Audit Followup Coordinator, Region 4 

Assistant Regional Administrator, Region 4 

Director, Superfund Division, Region 4 

Public Affairs Officer, Region 4 

President, Polu Kai Services, LLC 





11-R-0431                                                                               6
